APPENDIX

TABLE OF APPENDICES
Page
Appendix A: Court of Appeals Decision, United States
v. Foster, No. 20-5548, 2020 U.S. App. LEXIS 22724
(6th Cir. July 20, 2020) .......................................... 1a
Appendix B: District Court Order, United States v.
Foster, No. 2:19-CR-00193-DCLC (E.D. Tenn. May 22,
2020) ....................................................................... 9a
Appendix C: Magistrate Judge’s Order of Detention,
United States v. Foster, No. 2:19-CF-193 (E.D. Tenn.
Apr. 2, 2020) ......................................................... 23a
Appendix D: United States v. Foster, No. 2:19-CF-193
(E.D. Tenn. Jan. 3, 2020) ..................................... 35a
Appendix E: Court of Appeals Order Denying
Rehearing En Banc, United States v. Foster, No. 205548, 2020 U.S. App. LEXIS 26978 (6th Cir. Aug. 24,
2020) ..................................................................... 36a
Appendix F: Relevant Statutory Provision ......... 37a
18 U.S.C. § 3142

1a
No. 20-5548
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FILED
UNITED STATES
Jul 20, 2020
OF AMERICA,
DEBORAH S. HUNT, Clerk
Plaintiff-Appellee,
v.
MICHAEL LEE FOSTER,
Defendant-Appellant.
ORDER
Before: CLAY, ROGERS, and MURPHY, Circuit
Judges.
Defendant Michael Lee Foster appeals an order of
the district court detaining him pending trial.
Generally, he argues that in addition to addressing
the statutory factors governing detention, courts
should adopt a four-factor test to consider COVID-19’s
impact. Specifically, he argues that the district court
erred in finding that no condition(s) would assure he
would not endanger the community if released; and
that his detention violates his constitutional rights to
due process, to counsel, and to be free from cruel and
unusual punishment. The government opposes
reversal, and Foster replies. Foster also moves to take
judicial notice of COVID-19 restrictions and testing at
his facility, and of his physician’s interpretation of his

2a
recent prison medical tests. Foster requests oral
argument, and the government waives oral
argument. We conclude that the facts and legal
arguments [*2] are adequately presented on the
briefs; thus, we unanimously agree that oral
argument is not necessary. Fed. R. App. P.
34(a)(2)(C).
We first address Foster’s motion to take judicial
notice. We find that the facts Foster seeks to notice
are not generally known and are subject to reasonable
question. See Fed. R. Evid. 201(b)(1), (2). But we may
supplement the appellate record in the exercise of our
equitable powers. Thompson v. Bell, 373 F.3d 688,
690-91 (6th Cir. 2004), rev’d on other grounds, 545
U.S. 794, 125 S. Ct. 2825, 162 L. Ed. 2d 693 (2005).
We find that appropriate here, given that it would be
inefficient to remand, and the government had notice
of and responded to the facts.
A defendant may be detained pretrial if, after
conducting a hearing, a judicial officer determines
that “no condition or combination of conditions will
reasonably assure the appearance of the person as
required and the safety of any other person and the
community.” 18 U.S.C. § 3142(e)(1), (f)(1)(E). We
review a district court’s factual determinations for
clear error and review mixed questions of law and fact
(including whether detention is warranted) de novo.
United States v. Stone, 608 F.3d 939, 945 (6th Cir.
2010).
Foster first generally argues that special
consideration should be given to the medically
vulnerable during a pandemic and thus urges the

3a
court to adopt the four-factor test articulated in
United States v. Clark, No. 19-40068-01, 2020 U.S.
Dist. LEXIS 51390, 2020 WL 1446895, at *3 (D. Kan.
Mar. 25, 2020), to balance a defendant’s health
concerns against [*3] the government’s interest in
detention. We need not add the Clark factors to the
statutorily-required review of the § 3142(f) and (g)
factors, however, because those factors encompass the
considerations outlined in Clark.1
A statutory rebuttable presumption of detention
arises when there is probable cause to believe that the
defendant committed an offense involving a minor
victim under 18 U.S.C. §§ 2251, 2422, or 2252A(a)(2).
18 U.S.C. § 3142(e)(3)(E). Foster’s first, third, and
fourth counts alleged violations of these statutes. A
grand jury indictment, standing alone, establishes
probable cause to believe that a defendant committed
the offenses with which he is charged. Stone, 608 F.3d
at 945. Thus, the rebuttable presumption of detention
applies to Foster on three of his four counts.
If this presumption applies, then the defendant
must produce evidence that he is neither a danger to
the community nor a flight risk. Id. While this
“burden of production is not heavy, [the defendant]
must introduce at least some evidence.” Id. (internal
citation omitted). Although the district court arguably
erred in finding that Foster presented insufficient

1 Moreover,

the court in Clark was concerned only with § 3142(i),
see Clark, 2020 U.S. Dist. LEXIS 51390, 2020 WL 1446895 at *3,
but that subsection is not relevant to the present appeal which
arises only under subsection (f).

4a
evidence to rebut the presumption, it did not err in
alternatively finding that detention was appropriate
even after consideration [*4] of all the relevant
factors.
If a defendant satisfies his burden of production,
the presumption becomes one of several other factors
that must be weighed by the district court under §
3142(g). Id. at 946. “Congress, in enacting § 2251(a),
emphasized that ‘the use of children in the production
of sexually explicit materials, including photographs .
. . , is a form of sexual abuse which can result in
physical or psychological harm, or both, to the
children involved . . . and its continued existence
causes the child victims of sexual abuse continuing
harm by haunting those children in future years.’”
United States v. Champion, 248 F.3d 502, 506 (6th
Cir. 2001) (quoting Pub. L. No. 104-208, Div. A, Title
I, § 101(a)). Thus, the district court did not clearly err
in determining the presumption weighed in favor of
detention.
The remaining factors a district court considers
are: (1) the nature and circumstances of the offense;
(2) the weight of the evidence against the defendant;
(3) the history and characteristics of the defendant;
and (4) the nature and seriousness of the danger to
any person or the community that would be posed by
the defendant’s release. 18 U.S.C. § 3142(g)(1)-(4).
The nature and circumstances of the offense include
whether it involved a minor victim. 18 U.S.C. §
3142(g)(1). The factor involving the weight of the
evidence only goes [*5] to the likelihood that the
defendant will pose a danger to the community and is

5a
not a pretrial determination of guilt. Stone, 608 F.3d
at 948. In weighing the strength of the evidence, the
district court may not modify or limit the defendant’s
presumption of innocence. 18 U.S.C. § 3142(j). The
history and characteristics of a defendant include “the
person’s character, physical and mental condition,
family ties, employment, financial resources, length
of residence in the community, community ties, past
conduct, history relating to drug or alcohol abuse,
criminal history, and record concerning appearance at
court proceedings[.]” 18 U.S.C. § 3142(g)(3)(A).
Foster allegedly reached out to a fourteen-year old
girl, and he used multiple Snapchat accounts to
entice, extort, and threaten her and possibly
numerous others to provide him with nude
photographs. In at least two cases, Foster allegedly
turned his threats into reality. When challenged, he
revealed that he had encrypted the files and they were
on the dark web. Further, he did not curb his conduct,
even after discovery. Foster’s offenses also carry
substantial sentences. See 18 U.S.C. §§ 2251(a), (e),
2252A(a)(2)(A),(a)(5)(B), (b)(1), (b)(2), § 2422(b).
Foster’s family and community ties, long-term
employment, and lack of criminal history all weigh in
favor of his [*6] release. But his deceptive conduct
and unwillingness or inability to change or stop his
behavior even after being alerted that it had been
discovered, does not speak to his strength of
character. And, while Foster has several health
conditions, including the prior removal of
precancerous colon polyps, he has not been diagnosed
with cancer, he is receiving medical care, his

6a
conditions do not render him uniquely vulnerable to
COVID-19, and there are no reported cases of COVID19 at his facility.
His offenses are also serious in nature. “Receipt,
distribution, and possession of child pornography are
extremely dangerous to the community, particularly
because such activities are often hidden from a
defendant’s closest friends and family members.”
United States v. Tang, No. 3:19-cr-00014, 2019 U.S.
Dist. LEXIS 98602, 2019 WL 2453655, at *4 (E.D. Ky.
June 12, 2019). “Each download and view of a childpornographic image or film exacerbates the harm to
the child involved in its production.” United States v.
Mobasseri, No. 1:17CR138, 2020 U.S. Dist. LEXIS
98773, 2020 WL 3026070, at *3 (N.D. Ohio June 5,
2020). “Allegations of enticing a child to engage in
sexual activity are particularly dangerous and pose a
threat [not] easily mitigate[d]. . . .” United States v.
Cornish, No. 3:20-CR-00003, 2020 U.S. Dist. LEXIS
54398, 2020 WL 1498841, at *4 (E.D. [Ky.] Mar. 30,
2020). “[T]here is simply no failsafe way to prevent
any [*7] and all exposure,” even if a defendant forfeits
all electronic devices and is denied access to the
Internet. United States v. Tang, No. 3:19-cr-00014,
2019 U.S. Dist. LEXIS 98602, 2019 WL 2453655, at
*4 (E.D. Ky. June 12, 2019); see United States v.
Cornish, No. 3:20-CR-00003, 2020 U.S. Dist. LEXIS
54398, 2020 WL 1498841, at *4 (E.D. Mar. 30, 2020)
(“The myriad of Internet-capable devices available,
including those that work with data plans rather than
wifi access, render policing [defendant’s] Internet use
almost impossible.”). Evaluated in this context, the

7a
district court’s conclusion that the weight of the
evidence supported finding that no condition would
protect others is not clearly erroneous.
Next, Foster argues that his detention violates his
right to due process and constitutes punishment. The
Bail Reform Act is regulatory, not punitive, because it
“carefully limits the circumstances under which
detention may be sought to the most serious of
crimes.” United States v. Salerno, 481 U.S. 739, 747,
107 S. Ct. 2095, 95 L. Ed. 2d 697 (1987). Foster
received full due process, and the district court did not
clearly err in ordering him detained. Thus, his
detention does not constitute punishment. See id. at
747-48.
Foster also argues that his detention violates his
right to counsel. Whether Foster can assist in his
defense does not have any impact on the
determination of whether conditions of release would
assure his appearance [*8] or protect the public. See
United States v. Petters, No. 08-364, 2009 U.S. Dist.
LEXIS 6489, 2009 WL 205188, at *2 (D. Minn. Jan.
28, 2009). In any event, limited contact with counsel
due to COVID-19 concerns is not sufficient to violate
this right if there are still opportunities for significant
trial preparation. See United States v. Persico, No. S
84 Cr. 809, 1986 U.S. Dist. LEXIS 27586, 1986 WL
3793, at *2 (S.D.N.Y. Mar. 27, 1986). Foster’s trial has
been continued to October 2020, giving him ample
time to consult with counsel.
Finally, Foster asserts that his right, under the
Eighth Amendment, to be free from cruel and unusual
punishment has been violated given that he has not

8a
received a colonoscopy. In evaluating Foster’s motion
for release, the district court considered Foster’s
medical history, including that he had precancerous
polyps and had been scheduled for a colonoscopy that
he had not received. Whether Foster can otherwise
state a claim for deliberate indifferent to his serious
medical needs is better raised in a civil rights action
under 42 U.S.C. § 1983.
The motion to take judicial notice is GRANTED
to the extent we exercise our equitable powers to
supplement the record with his proffered information.
The district court’s pretrial detention order is
AFFIRMED.
ENTERED BY ORDER OF THE COURT
/s Deborah S. Hunt
Deborah S. Hunt, Clerk

9a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
GREENEVILLE DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.

No. 2:19-CR-00193-DCLC

MICHAEL LEE FOSTER,
Defendant.
ORDER
Defendant has filed a Motion for Revocation of
Detention Order [Doc. 29]. Defendant, through
counsel, seeks a reversal of Magistrate Judge Cynthia
Richardson Wyrick’s decision to detain him pending
trial [Doc. 27]. The United States has filed a response
in opposition [Doc. 30].
I. Factual and Procedural Background
On November 5, 2019, the United States brought
a Criminal Complaint against Defendant [Doc. 1]. As
detailed in the Criminal Complaint, Defendant is
accused of blackmailing and manipulating young girls
into sending him sexually explicit photographs and
videos though Snapchat. Specifically, Defendant is
alleged to have obtained nude photographs of a

10a
fourteen-year old girl and subsequently using those
photos to blackmail her into getting one of her friends
(“Victim”) to also send Defendant other nude
photographs through Snapchat [Doc. 1, ¶ 14]. Using
multiple Snapchat accounts, Defendant in turn
blackmailed Victim into sending additional nude
photos by threatening to send the nude photos she
had sent of herself to her friends and family if she did
not comply [Doc. 1, ¶ 15-16]. After Victim refused,
Defendant allegedly sent Victim’s nude photos to one
of her male friends [Doc. 1, ¶ 16].
[*2] Victim and her parents reported this conduct
to local authorities, who requested assistance from
the FBI [Doc. 1, ¶ 14]. After obtaining search
warrants for the various Snapchat accounts used to
contact Victim, investigators found that these
accounts had been used in soliciting and receiving
sexually explicit photographs and videos from at least
six other victims [Doc. 1, ¶ 20- 21]. The investigation
led authorities to believe that one individual
controlled these accounts and that many of the
Snapchat accounts had used the same IP address to
access the accounts [Doc. 1, ¶ 30, 37]. When
investigators traced the IP address, they found it
registered to Defendant, Michael Foster, identifying
his home address and phone number [Doc. 1, ¶ 32-36].
In further corroboration, investigators matched a
photo the victim had received from this individual to
Defendant’s driver’s license [Doc. 1, ¶ 38]. Law
enforcement obtained a search warrant for
Defendant’s residence and during its execution,
Defendant’s his wife confirmed Defendant’s cell phone

11a
number, which was also associated with the IP
address [Doc. 1, ¶ 40].
A grand jury returned a four-count Indictment,
charging Defendant with knowingly enticing a minor
to engage in sexually explicit conduct for the purpose
of producing child pornography in violation of 18
U.S.C. § 2251(a); possessing child pornography in
violation of 18 U.S. § 2252A(a)(5)(B) and (b)(2);
knowingly using or attempting to use a means of
interstate commerce to entice a minor to engage in
any sexual activity in violation of 18 U.S.C. § 2422(b);
and receiving child pornography in violation of 18
U.S.C. § 2252A(a)(2)(A) and (b)(1). A conviction for the
Section 2251(a) offense carries a minimum
mandatory sentence of fifteen years.
On March 17, 2020, Defendant filed a Motion for
Release from Custody [Doc. 19] and supporting
memorandum [Doc. 20]. The United States responded
in opposition [Doc. 22]. Magistrate Judge Wyrick held
a detention hearing on March 30, 2020 and entered
an order detaining Defendant [Doc. 27]. This appeal
followed.
[*3] II. Standard of Review
Review of a detention order is governed by 18
U.S.C § 3145(b), which states:
If a person is ordered detained by a magistrate
judge …, the person may file, with the court
having original jurisdiction over the offense, a
motion for revocation or amendment of the order.
The motion shall be determined promptly.

12a
This Court shall then conduct a de novo review of the
Magistrate Judge’s detention order. See United States
v. Romans, No. 00–5456, 2000 WL 658042, at *1 (6th
Cir. May 9, 2000).
III. Analysis
A defendant should be detained without bond
pending trial if, after a hearing, a “judicial officer
finds that no condition or combination of conditions
will reasonably assure the appearance of the person
as required and the safety of any other person and the
community.” 18 U.S.C. § 3142(e)(1). “The default
position of the law is that…a defendant should be
released pending trial.” United States v. Stone, 608
F.3d 939, 945 (6th Cir. 2010). In making detention
decisions, the Court considers the factors enumerated
in 18 U.S.C. § 3142(g), such as the nature and
circumstances of the offense, including whether the
offense involves a minor victim, the weight of the
evidence against the person, the defendant’s person
history and characteristics, and the nature and
seriousness of the danger to the community the
defendant’s release would pose.
While the default position is for release, that
changes depending on the crime charged. Crimes
against minors is one of those categories where a
defendant does not start with the default position. For
those crimes, Congress established a rebuttable
presumption “that no condition or combination of
conditions will reasonably assure the appearance of
the person as required and the safety of the

13a
community….” 18 U.S.C. § 3142(e)(3). In this case,
defendant does not dispute the applicability of the
presumption to his case. See [Doc. 28, Transcript of
Detention Hearing, 5:12- 13].
[*4] The effect of the presumption is to shift the
burden to the defendant to produce some evidence to
show there is, in fact, a condition or combination of
conditions that will reasonably assure his appearance
and the safety of the community. He can meet that
burden “when he comes forward with evidence that he
does not pose a danger to the community or a risk of
flight.” Stone, 608 F.3d at 945 (quoting United States
v. Mercedes, 254 F.3d 433, 436 (2d Cir. 2001))
(internal quotation marks omitted). The presumption
does not change the ultimate burden the government
carries to persuade the Court that no conditions of
release can assure that the defendant will appear and
to assure the safety of the community.
The Magistrate Judge found that Defendant
rebutted the presumption that he was a flight risk but
found he had failed to rebut the presumption
concerning the dangerousness he posed to the
community [Doc. 27, pg. 2]. Defendant attempted to
rebut the presumption of dangerousness by offering
Defendant’s wife and daughter as third-party
custodians, who testified they would report to
probation and the Court if Defendant violated any of
his conditions of release. On this issue, the Magistrate
Judge found them incredible and “unlikely to report
Defendant if he violated conditions of release.” [Doc.
27, pg. 3]. Magistrate Judge Wyrick found that
“[n]either witness seemed willing to acknowledge the

14a
possibility that Defendant was guilty of the crimes
with which he has been charged. While that is an
understandable position, it does not give the Court a
level of comfort that they would actually be diligent in
ensuring that Defendant followed conditions of
release.” [Doc. 27, pg. 3]. The Magistrate Judge found
no appropriate third-party custodian available. She
then found that the nature and circumstances of the
charges and weight of evidence factored against
Defendant when considering the safety of the
community. She ordered him detained.
[*5] In his Motion for Revocation of Detention
Order, Defendant argues that he satisfied his burden
of production through witness testimony, sworn
declarations, and proffer [Doc. 29, pg. 2]. He states
that while the Magistrate Judge found that he “has
not introduced sufficient evidence to rebut the
presumption,” his production of some evidence is
enough to meet his burden [Doc. 27, pg. 2; Doc. 29, pg.
1].
Defendant argues he successfully rebutted the
presumption concerning both risk of flight and
dangerousness. Whether Defendant is a flight risk is
not at issue. Defendant successfully rebutted the
presumption in that regard. The issue is the danger
his release poses to the community and whether that
danger can be addressed through the imposition of
conditions. The Magistrate Judge found that danger
could not be mitigated through conditions and
detained him. Defendant argues this finding was in
error because he proposed conditions that would
address the danger Defendant posed. For example, he

15a
argues he offered to remove internet from the home,
including his wife’s and daughter’s smartphones [Doc.
28, 8:11-14]. Defendant presented the testimony of his
wife and daughter who both testified they would
ensure that Defendant complied with any conditions
of release and would report him to probation and the
Court if he did not [Doc. 28, 37:7-12, 43:13-22].
Defendant also submitted various declarations of
those who know Defendant attesting to his character.
See generally [Docs. 20-1, 20-2, 20-3, 20-4, 20-5, 20-6,
20-7, 20-12, 20-13, 20-14].
To be sure, the Sixth Circuit has held that a
defendant’s burden of production is not heavy to rebut
the statutory presumption. See Stone, 608 F.3d at 945
(noting duty to “introduce at least some evidence”).
But this presumption is not overcome by any
presenting any evidence. If that were the case, the
burden would be meaningless. A defendant cannot
overcome the presumption by proposing a third-party
custodian who the Court finds utterly incredible. See
United States v. [*6] Hernandez, No. 1:02-CR-006,
2002 WL 1377911, at *2 (E.D. Tenn. Feb. 27, 2002)
(crafting production burden as “the burden of
producing probative, credible evidence to rebut the
presumption and support his [defendant’s] contention
that he will appear ... and he does not pose a danger”).
While the burden is not great, the Court has to at
least be minimally comfortable with their willingness
to actually serve as third-party custodians. That is a
credibility judgment incumbent on the Court to make.
While Defendant called witnesses to overcome the
presumption, the Magistrate Judge found these

16a
individuals would not report any violations
committed by Defendant. In other words, the Court
found that if Defendant exploited other minors as he
is accused of doing here then these proposed thirdparty custodians would not report those violations.
Does
presenting
incredible
testimony
from
individuals whom the Court finds not suitable thirdparty custodians rebut the presumption? The answer
is obviously no.
While the Court need not address the statutory
factors because Defendant has not overcome the
presumption of detention, out of an abundance of
caution and in the interest of thoroughness, however,
the Court will analyze each 3142(g) factor briefly
below.
The first factor to consider is the “nature and
circumstances of the offense charged, including
whether the offense [...] involves a [...] a minor [.]” 18
U.S.C. § 3142(g)(1). Defendant is alleged to have
enticed minors into creating child pornography,
blackmailed them and threatened them. The Court
has already summarized the extent of the evidence
against him and finds no need to repeat it. This factor
favors detention.
The second factor concerns the “weight of the
evidence against the person.” 18 U.S.C. § 3142(g)(2).
This “factor goes to the weight of the evidence of
dangerousness, not the weight of the evidence of the
defendant’s guilt.” Stone, 608 F.3d at 948. “The §
3142(g) analysis is concerned with a practical [*7]
adjudication of guilt for a particular offense.” United

17a
States v. Tolbert, 2017 WL 6003075, at *5 (E.D. Tenn.
Dec. 4, 2017) (citing Stone, 608 F.3d at 948).
In addition to the dangerous nature of the current
charge, Defendant also engaged in a pattern of
conduct that clearly suggests he poses a danger to the
community. The United States made an offer of proof
that Defendant contacted, enticed, exploited, and
threatened multiple girls under the age of 16 into
sending him nude photos and videos of themselves.
He is alleged to have done so by utilizing multiple
Snapchat accounts, in some cases posing as victims to
coerce other young girls into participating in his
scheme. Defendant initially admitted ownership of
these Snapchat accounts to the investigating agents.
Not only is Defendant alleged to have tricked young
girls, he is accused of openly manipulating,
blackmailing and threatening them to continue to
send him photos. In at least one case, Defendant
turned his threat to reality. When the victim did not
comply with his demands, he allegedly sent her
photos to her friend and possibly her father. His
conduct establishes that the weight of the evidence of
his dangerousness is heavy and strongly favors
detention.
The third factor, the “history and characteristics of
the person,” considers a host of issues. 18 U.S.C. §
3142(g)(3). Defendant argues his personal history and
characteristics favor release. He has no criminal
record. He has lived in the same community for
almost 20 years. He has a family: a wife and daughter,
with whom he could live, and a son, who lives in
Arizona. Prior to his arrest, Defendant had steady

18a
employment at Petoskey Plastics, Inc. since 2000. His
boss states that he would try to employ Defendant if
he were released pretrial. Defendant also has several
health conditions, including testing positive for
precancerous colon polyps, Meniere’s disease, which
causes episodic dizziness, and Gastroesophageal
Reflux Disease (GERD). These diagnoses, Defendant
argues, requires ongoing medical care and testing and
puts him at higher risk of assessment of the
defendant’s dangerousness, rather than an [*8]
contracting COVID-19. Defendant’s primary care
physician, Dr. Mathew Kraus, and Defendant’s
gastroenterologist, Dr. John Haydek, recommended
that Defendant have a follow-up colonoscopy to
evaluate for any recurrent issues. Defendant argues
he is not receiving the medical care he needs at the
detention facility.
Defendant argues his detention would jeopardize
his health because of this pandemic. First and
foremost, Section 3142(g)(4) focuses on “the nature
and seriousness of the danger to any person or the
community that would be posed by the person’s
release,” not the danger to the defendant upon his
detention. The factor set forth in 3142(g)(3(A) focuses
on a defendant’s personal characteristics, including
his health, but Magistrate Judge Wyrick considered
these personal characteristics in balancing the
statutory factors. She noted that while Defendant did
have precancerous polyps successfully removed, he
has never been diagnosed with cancer. She also found
that no evidence that healthcare professionals at the
jail are simply ignoring Defendant’s symptoms and

19a
diagnoses. Instead, she noted that the medical staff
ordered testing, just not the testing that Defendant
would have preferred. Concerning the risk for
developing COVID-19, at the time of filing, Southwest
Virginial Regional Jail at Abington does not have any
active COVID19 cases among inmates or staff.
Defendant
does
not
assert
that
he
is
immunocompromised, only that because of his
diagnoses, he could be.
Courts are routinely rejecting the possibility of
contracting COVID-19 as justification for release.
“[T]he Court cannot accept [the] argument that any
risk of contracting the coronavirus while incarcerated
warrants temporary release.” United States v.
Wilburn, No. 1:18-cr-115, 2020 WL 1899146, at *6
(W.D. Penn. Apr. 17, 2020) (emphasis in original). The
Court rejects Defendant’s speculative argument that
the dangerous nature of the COVID-19 pandemic
places him in a unique category.
[*9] Defendant also submitted multiple
declarations on his behalf, all stating that he is a good
man who is not a danger to the community. These are
of limited value. Seldom does a defendant broadcast
to the family and friends his intentions to entice or
exploit minor children. It is not surprising that both
his wife and daughter testified that they simply do not
believe Defendant could have done these acts. During
an initial interview with investigators, Defendant’s
daughter, Ashley Foster, indicated her father was
very secretive about his phone [Doc. 28, 45:5-10]. She
also stated that her fiancé had previously expressed
concerns about Defendant “hiding things.” [Doc. 28,

20a
46:7- 9, 48:1-5]. The United States argued that
Defendant’s ability to deceive is what makes him so
dangerous. In fact, apparently when confronted by a
victim’s mother, Defendant allegedly claimed to be
unafraid of her because his contact was encrypted and
he could not be caught [Doc. 28, 60:2- 5]. Some of his
personal history favors release and some do not.
The final factor to consider is “the nature and
seriousness of the danger to any person or the
community that would be posed by the person’s
release.” 18 U.S.C. § 3142(g)(4). In this case, law
enforcement discovered that Defendant utilized his
phone to contact potentially six other victims. He
expressed no fear of being caught to the victim’s
mother. He allegedly carried through on his threat to
humiliate a minor by sending photos of her to her
friends when she declined to send any more.
Defendant argues that he is presumed innocent
and he can address the purported danger by removing
all internet access in the home [Doc. 29, pg. 3]. First,
when considering pretrial release, the Bail Reform
Act makes clear that “[n]othing in this section shall
be construed as modifying or limiting the
presumption of innocence.” 18 U.S.C. § 3142(j). In
other words, he is presumed innocent from start to
finish. But that presumption is not dispositive. In
fact, Magistrate Judge Wyrick found that “[w]hile
Defendant is certainly entitled to the presumption
that he is innocent, [*10] when considering pre-trial
detention, the Court is charged with considering the
weight of the evidence.” [Doc. 27, pg. 3].

21a
Second, simply removing internet access from the
home does not adequately address the danger
Defendant poses to the community. The Magistrate
Judge was not convinced that this condition could
even be achieved with the proposed third-party
custodians who were unlikely to report any violations
of the court-imposed conditions of release. After a
review of the record, the Court comes to the same
conclusion. His conduct suggests he poses a serious
danger to minor children and this factor favors
detention.
Upon de novo review of the transcript, and after
weighing all the evidence and reviewing the entire
record, this Court finds under the totality of the
circumstances that clear and convincing evidence
supports the finding that Defendant poses a danger to
the safety of the community and that no condition or
conditions of release would reasonably assure the
safety of the community. This Court agrees with the
Magistrate Judge’s assessment of Defendant’s
proposed third-party custodians. They simply
appreciate neither the seriousness of these
accusations nor the weight of the evidence that
suggests Defendant poses a serious danger to the
community.
IV. Conclusion
For the reasons discussed above, the Court
DENIES Defendant’s Motion to Revoke Magistrate
Judge’s Detention Order [Doc. 29]. Defendant shall

22a
remain DETAINED in the custody of the United
States Marshals pending trial.
SO ORDERED:
s/ Clifton L. Corker
United States District Judge
Filed 05/22/20

23a
UNITED STATES DISTRICT COURT
for the
Eastern District of Tennessee
United States of America
v.
MICHAEL LEE FOSTER
Defendant.
Case No. 2:19-CR-193
ORDER OF DETENTION PENDING TRIAL
Part I – Eligibility for Detention
Upon the
Motion of the Government attorney
pursuant to 18 U.S.C. § 3142(f)(1), or
 Motion of the Government or Court’s own
motion pursuant to 18 U.S.C. § 3142(f)(2),
the Court held a hearing and found that detention is
warranted. This order sets forth the Court’s findings
of fact and conclusions of law, as required by 18 U.S.C.
§ 3142(i), in addition to any other findings made at
the hearing.
Part II – Findings of Face and Law as to
Presumptions under § 3142(e)

24a
 A. Rebuttable Presumption Arises Under 18
U.S.C. § 3142(e)(2) (previous violator): There is a
rebuttable presumption that no condition or
combination of conditions will reasonably assure the
safety of any other person and the community because
the following conditions have been met:
 (1) the defendant is charged with one of the
following crimes described in 18 U.S.C. §
3142(f)(1):
 (a) a crime of violence, a violation of 18
U.S.C. 1591, or an offense listed in 18 U.S.C. §
2332b(g)(5)(B) for which a maximum term of
imprisonment of 10 years or more is prescribed;
or
 (b) an offense for which the maximum
sentence is life imprisonment or death; or
 (c) an offense for which a maximum term of
imprisonment of 10 years or more is prescribed
in the Controlled Substances Act (21 U.S.C. §§
801-904), the Controlled Substances Import
and Export Act (21 U.S.C. §§ 951-971), or
Chapter 705 of Title 46, U.S.C. (46 U.S.C. §§
70501-70508); or
 (d) any felony if such person has been
convicted of two or more offenses described in
subparagraphs (a) through (c) of this
paragraph, or two or more State or local
offenses that would have been offenses
described in subparagraphs (a) through (c) of
this paragraph if a circumstance giving rise to
Federal jurisdiction had existed, or a
combination of such offenses; or

25a
 (e) any felony that is not otherwise a crime
but involves: (i) a minor victim; (ii) the
possession of a firearm or destructive device (as
defined in 18 U.S.C. § 921); (iii) any other
dangerous weapon; or (iv) a failure to register
under 18 U.S.C. § 2250; and
 (2) the defendant has previously been convicted
of a Federal offense that is described in 18 U.S.C.
§ 3142(f)(1), or of a State or local offense that
would have been such an offense if a circumstance
giving rise to Federal jurisdiction had existed; and
 (3) the offense described in paragraph (2) above
for which the defendant has been convicted was
committed while the defendant was on release
pending trial for a Federal, State, or local offense;
and
 (4) a period of not more than five years has
elapsed since the date of conviction, or the release
of the defendant from imprisonment, for the
offense described in paragraph (2) above,
whichever is later.
[*2]
B. Rebuttable Presumption Arises Under 18
U.S.C. § 3142(e)(3) (narcotics, firearm, other
offenses): There is a rebuttable presumption that no
condition or combination of conditions will reasonably
assure the appearance of the defendant as required
and the safety of the community because there is
probable cause to believe that the defendant
committed one or more of the following offenses:
 (1) an offense for which a maximum term of
imprisonment of 10 years or more is prescribed in

26a
the Controlled Substances Act (21 U.S.C. §§ 801904), the Controlled Substances Import and
Export Act (21 U.S.C. §§ 951-971), or Chapter 705
of Title 46, U.S.C. (46 U.S.C. §§ 70501-70508);
 (2) an offense under 18 U.S.C. §§ 924(c), 956(a),
or 2332b;
 (3) an offense listed in 18 U.S.C. §
2332b(g)(5)(B) for which a maximum term of
imprisonment of 10 years or more is prescribed;
 (4) an offense under Chapter 77 of Title 18,
U.S.C. (18 U.S.C. §§ 1581-1597) for which a
maximum term of imprisonment of 20 years or
more is prescribed; or
(5) an offense involving a minor victim under
18 U.S.C. §§ 1201, 1591, 2241, 2242,
2242(a)(1),2245,
2251,
2251A,
2252(a)(1),
2252(a)(2), 2252(a)(3), 2252A(a)(1), 2252A(a)(1),
2252A(a)(2), 2252A(a)(3), 2252A(a)(4), 2260, 2421,
2422, 2423, or 2425.
C. Conclusions Regarding Applicability of
Any Presumption Established Above
The defendant has not introduced sufficient
evidence to rebut the presumption above.
OR
 The defendant has presented evidence sufficient
to rebut the presumption, but after considering the

27a
presumption and the other factors discussed
below, detention is warranted.
Part III – Analysis and Statement of the
Reasons for Detention
After considering the factors set forth in 18 U.S.C.
§ 3142(g) and the information presented at the
detention hearing, the Court concludes that the
defendant must be detained pending trial because the
government has proven:
By clear and convincing evidence that no
condition or combination of conditions of release
will reasonably assure the safety of any other
person and the community.
 By a preponderance of evidence that no
condition or combination of conditions of release
will reasonably
assure
the
defendant’s
appearance as required.
In addition to any findings made on the record at the
hearing, the reasons for detention include the
following:
Weight of evidence against the defendant is
strong
Subject to lengthy period of incarceration if
convicted
 Prior criminal history

28a
 Participation in criminal activity while on
probation, parole, or supervision
 History of violence or use of weapons
 History of alcohol or substance abuse
 Lack of stable employment
 Lack of stable residence
 Lack of financially responsible sureties
 Lack of significant community or family ties to
this district
 Significant family or other ties outside the
United States [*3]
 Lack of legal status in the United States
 Subject to removal or deportation after serving
any period of incarceration
 Prior failure to appear in court as ordered
 Prior attempt(s) to evade law enforcement
 Use of alias(es) or false documents
 Background information unknown or unverified
 Prior violations of probation, parole, or
supervised release
OTHER REASONS OR FURTHER EXPLANATION:
Defendant’s case is a particularly challenging one
regarding the issue of pre-trial detention. On the one
hand, Defendant’s counsel has done an excellent job
of presenting the side that most of the world knew
with regard to Defendant: husband of many years;
loving father; coach; well-respected member of his
community; and very talented and loyal employee.

29a
Defendant also has no criminal record. Additionally,
Defendant had a health scare with precancerous
polyps in his colon, and also has GERD and Meniere’s
disease, with the Meniere’s disease causing him
extreme dizziness at times. Defendant’s counsel also
presented statements from a number of people
attesting to Defendant’s good character and to the fact
that they do not believe he would present a danger to
the community.
Defendant also called his wife and daughter to testify
and offered them as his third-party custodians. They
both testified that Defendant was a good husband and
father and that he would in no way be a danger to the
community. They cited a number of examples of
positive and commendable behavior by Defendant
through the years. Both also stated that they would
be willing to let Probation know if Defendant failed to
follow his conditions of release if he was released into
their third-party custody. While the Court
understands that neither witness had testified before
and further acknowledges that Defendant’s arrest
must have been devastating for both, the Court also
did not find either witness to be fully candid in her
testimony. Defendant’s wife is clearly concerned
about how to make ends meet and his daughter
seemed intent on testifying in a way that protected
her father. Neither witness seemed willing to
acknowledge the possibility that Defendant was
guilty of the crimes with which he has been charged.
While that is an understandable position, it does not
give the Court a level of comfort that they would

30a
actually be diligent in ensuring that Defendant
followed conditions of release. The totality of their
testimony also indicates to the Court that they would
be unlikely to report Defendant if he violated his
conditions of release.
The Court will first briefly address Defendant’s
contention that his health conditions particularly
compel his release as a result of the COVID-19
epidemic. While Defendant has had a precancerous
polyp removed successfully, he has never been
diagnosed with cancer. Nothing in the medical
documentation he has provided suggests that his
immune system is compromised. Defendant’s counsel
can work with the Marshal’s service to have
Defendant’s request for a colonoscopy reconsidered,
but he is being provided with a form of testing to
evaluate the issue, such that his health issues have
not been ignored. The Court does not find that
Defendant has demonstrated himself to be in the
population particularly vulnerable to Coronavirus.
The Court now turns its attention to the issues of
whether Defendant is a flight risk or unreasonably
dangerous to the community if released, and if so,
whether any combination of conditions can be
imposed to address those risks.
While Defendant does face a lengthy period of
incarceration that would present the possibility of
him being a flight risk, he has strong ties to the
community. He has been married for an extended

31a
period of time to the mother of his children and while
testimony is conflicting as to the closeness of their
relationship, there is no doubt that Defendant has a
very close relationship with his children.
The Court finds that risk of flight is not a compelling
reason to detain Defendant.
The Court now turns its attention to whether
Defendant is a danger to the community and if so,
whether any combination of conditions can be placed
upon Defendant to reasonably assure the safety of the
community if Defendant is released. While Defendant
is certainly entitled to the presumption that he is
innocent, when considering pre-trial detention, the
Court is charged with considering the weight of the
evidence. Here the government notes that Defendant
has confessed to being the owner of a number of online
accounts which were used to terrorize and victimize
young girls. (While Defendant’s counsel takes issue
with the manner in which the confession was
obtained, that is an issue for another day and the
Court cannot ignore the confession at this juncture.)
This is not a case where Defendant is accused of solely
[*4] possessing pornographic images but also of
directly soliciting such images from individuals he
knew to be children. The government also alleges that
when the children no longer wanted to send him
pornographic images, he blackmailed them into
sending more and for those that refused, he sent the
pornographic images he had already received to their
parents, teachers and friends. Because Defendant

32a
had parented a daughter through the same years of
age as his alleged victims and had also coached
children of the alleged victims’ ages, he of all people
knew how particularly vulnerable those victims
would be. Defendant even is alleged to have posed as
a victim himself to obtain pornographic images. If
Defendant is guilty of the crimes charged, he has
shown himself to be a very dangerous master of
deception.
If Defendant did commit the crimes of which he is
accused, he used the internet as the mechanism for
committing these crimes. He is alleged to have
bragged that authorities would be unable to catch him
because he encrypted the messages he sent. It is clear
that Defendant’s wife and daughter never suspected
any inappropriate computer activity, whether on a
computer, smart phone or otherwise, although
apparently his daughter did indicate to the FBI that
her fiancé, who is a police officer, had told her that the
way Defendant handled his phone was suspicious.
The Internet is an essential part of how almost every
aspect of the world operates today. While Defendant’s
wife understandably wants Defendant home and
contributing to the family finances, it is difficult to
imagine any job Defendant could perform where there
would not be Internet access available on the
premises, even if his job didn’t require direct Internet
access. Because Defendant’s alleged conduct involved
significant direct and ongoing victimization of young
children, even if Defendant was released to home

33a
confinement, the Court would have to be convinced
that Defendant would not have access to the Internet
in the third-party custody of his wife and daughter in
order to reasonably assure the safety of the public. As
referenced above, the testimony of Defendant’s wife
and daughter simply did not provide that assurance.
While the Court believes that they would sincerely
attempt to prevent Defendant from accessing the
Internet, given the widespread availability of the
Internet, his purported sophistication in using it, his
alleged skill at deception and the Court’s lack of faith
in the willingness of Defendant’s family to report
violations to probation, the Court simply cannot find
that any combinations of conditions exist which can
reasonably ensure that the public will be safe if
Defendant is released.
Part IV – Directions Regarding Detention
The defendant is remanded to the custody of the
Attorney General or to the Attorney General’s
designated representative for confinement in a
corrections facility separate, to the extent practicable,
from persons awaiting or serving sentences or being
held in custody pending appeal. The defendant must
be afforded a reasonable opportunity for private
consultation with defense counsel. On order of a court
of the United States or on request of an attorney for
the Government, the person in charge of the
corrections facility must deliver the defendant to a
United States Marshal for the purpose of an
appearance in connection with a court proceeding.

34a

Date:
03/30/2020

/s Cynthia Richardson Wyrick
United States Magistrate Judge
Filed 04/02/20

35a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
GREENEVILLE DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
2:19-CR-193
MICHAEL LEE FOSTER,
Defendant.
ORDER
At Defendant’s initial appearance on January 3,
2020, Defendant and counsel conferred, after which
Defendant’s counsel announced that Defendant
wished to waive a detention hearing without
prejudice to requesting one subsequently.
If Defendant later files a motion requesting a
detention hearing, such a hearing will be scheduled
promptly.
SO ORDERED:
/s Cynthia Richardson Wyrick
United States Magistrate Judge
Filed 01/03/20

36a
No. 20-5548
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FILED
UNITED STATES OF
Aug 24, 2020
AMERICA,
DEBORAH S. HUNT, Clerk
Plaintiff-Appellee,
v.
MICHAEL LEE FOSTER,
Defendant-Appellant.
ORDER
BEFORE: CLAY, ROGERS, and MURPHY, Circuit
Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
/s Deborah S. Hunt
Deborah S. Hunt, Clerk

37a
§ 3142. Release or detention of a defendant pending
trial
(a) In general. Upon the appearance before a
judicial officer of a person charged with an offense, the
judicial officer shall issue an order that, pending trial,
the person be—
(1) Released on personal recognizance or upon
execution of an unsecured appearance bond, under
subsection (b) of this section;
(2) released on a condition or combination of
conditions under subsection (c) of this section;
(3) temporarily detained to permit revocation of
conditional release, deportation, or exclusion under
subsection (d) of this section; or
(4) detained under subsection (e) of this section.
(b) Release on personal recognizance or
unsecured appearance bond. The judicial officer
shall order the pretrial release of the person on
personal recognizance, or upon execution of an
unsecured appearance bond in an amount specified by
the court, subject to the condition that the person not
commit a Federal, State, or local crime during the
period of release and subject to the condition that the
person cooperate in the collection of a DNA sample
from the person if the collection of such a sample is
authorized pursuant to section 3 of the DNA Analysis
Backlog Elimination Act of 2000 (42 U.S.C. 14135a),
unless the judicial officer determines that such
release will not reasonably assure the appearance of

38a
the person as required or will endanger the safety of
any other person or the community.
(c) Release on conditions.
(1) If the judicial officer determines that the release
described in subsection (b) of this section will not
reasonably assure the appearance of the person as
required or will endanger the safety of any other
person or the community, such judicial officer shall
order the pretrial release of the person—
(A) subject to the condition that the person not
commit a Federal, State, or local crime during the
period of release and subject to the condition that the
person cooperate in the collection of a DNA sample
from the person if the collection of such a sample is
authorized pursuant to section 3 of the DNA Analysis
Backlog Elimination Act of 2000 (42 U.S.C. 14135a);
and
(B) subject to the least restrictive further condition,
or combination of conditions, that such judicial officer
determines will reasonably assure the appearance of
the person as required and the safety of any other
person and the community, which may include the
condition that the person—
(i) remain in the custody of a designated person, who
agrees to assume supervision and to report any
violation of a release condition to the court, if the
designated person is able reasonably to assure the
judicial officer that the person will appear as required
and will not pose a danger to the safety of any other
person or the community;
(ii) maintain employment, or, if unemployed, actively
seek employment;

39a
(iii) maintain or commence an educational program;
(iv) abide by specified restrictions on personal
associations, place of abode, or travel;
(v) avoid all contact with an alleged victim of the
crime and with a potential witness who may testify
concerning the offense;
(vi) report on a regular basis to a designated law
enforcement agency, pretrial services agency, or other
agency;
(vii) comply with a specified curfew;
(viii) refrain from possessing a firearm, destructive
device, or other dangerous weapon;
(ix) refrain from excessive use of alcohol, or any use
of a narcotic drug or other controlled substance, as
defined in section 102 of the Controlled Substances
Act (21 U.S.C. 802), without a prescription by a
licensed medical practitioner;
(x) undergo available medical, psychological, or
psychiatric treatment, including treatment for drug
or alcohol dependency, and remain in a specified
institution if required for that purpose;
(xi) execute an agreement to forfeit upon failing to
appear as required, property of a sufficient
unencumbered value, including money, as is
reasonably necessary to assure the appearance of the
person as required, and shall provide the court with
proof of ownership and the value of the property along
with information regarding existing encumbrances as
the judicial office may require;
(xii) execute a bail bond with solvent sureties; who
will execute an agreement to forfeit in such amount

40a
as is reasonably necessary to assure appearance of the
person as required and shall provide the court with
information regarding the value of the assets and
liabilities of the surety if other than an approved
surety and the nature and extent of encumbrances
against the surety’s property; such surety shall have
a net worth which shall have sufficient
unencumbered value to pay the amount of the bail
bond;
(xiii) return to custody for specified hours following
release for employment, schooling, or other limited
purposes; and
(xiv) satisfy any other condition that is reasonably
necessary to assure the appearance of the person as
required and to assure the safety of any other person
and the community.
In any case that involves a minor victim under section
1201, 1591, 2241, 2242, 2244(a)(1), 2245, 2251,
2251A, 2252(a)(1), 2252(a)(2), 2252(a)(3), 2252A(a)(1),
2252A(a)(2), 2252A(a)(3), 2252A(a)(4), 2260, 2421,
2422, 2423, or 2425 of this title [18 USCS §
1201, 1591, 2241, 2242, 2244(a)(1), 2245, 2251, 2251
A, 2252(a)(1), (2), (3), 2252A(a)(1), (2), (3), (4), 2260,
2421, 2422, 2423, or 2425], or a failure to register
offense under section 2250 of this title [18 USCS §
2250], any release order shall contain, at a minimum,
a condition of electronic monitoring and each of the
conditions specified at subparagraphs (iv), (v), (vi),
(vii), and (viii).
(2) The judicial officer may not impose a financial
condition that results in the pretrial detention of the
person.

41a
(3) The judicial officer may at any time amend the
order to impose additional or different conditions of
release.
(d) Temporary detention to permit revocation
of
conditional
release,
deportation,
or
exclusion. If the judicial officer determines that—
(1) such person—
(A) is, and was at the time the offense was committed,
on—
(i) release pending trial for a felony under Federal,
State, or local law;
(ii) release pending imposition or execution of
sentence, appeal of sentence or conviction, or
completion of sentence, for any offense under Federal,
State, or local law; or
(iii) probation or parole for any offense under
Federal, State, or local law; or
(B) is not a citizen of the United States or lawfully
admitted for permanent residence, as defined in
section 101(a)(20) of the Immigration and Nationality
Act (8 U.S.C. 1101(a)(20)); and
(2) the person may flee or pose a danger to any other
person or the community;
such judicial officer shall order the detention of the
person, for a period of not more than ten days,
excluding Saturdays, Sundays, and holidays, and
direct the attorney for the Government to notify the
appropriate court, probation or parole official, or
State or local law enforcement official, or the
appropriate official of the Immigration and
Naturalization Service. If the official fails or declines

42a
to take the person into custody during that period, the
person shall be treated in accordance with the other
provisions of this section, notwithstanding the
applicability of other provisions of law governing
release pending trial or deportation or exclusion
proceedings. If temporary detention is sought under
paragraph (1)(B) of this subsection, the person has the
burden of proving to the court such person’s United
States citizenship or lawful admission for permanent
residence.
(e) Detention.
(1) If, after a hearing pursuant to the provisions of
subsection (f) of this section, the judicial officer finds
that no condition or combination of conditions will
reasonably assure the appearance of the person as
required and the safety of any other person and the
community, such judicial officer shall order the
detention of the person before trial.
(2) In a case described in subsection (f)(1) of this
section, a rebuttable presumption arises that no
condition or combination of conditions will reasonably
assure the safety of any other person and the
community if such judicial officer finds that—
(A) the person has been convicted of a Federal offense
that is described in subsection (f)(1) of this section, or
of a State or local offense that would have been an
offense described in subsection (f)(1) of this section if
a circumstance giving rise to Federal jurisdiction had
existed;
(B) the offense described in subparagraph (A) was
committed while the person was on release pending
trial for a Federal, State, or local offense; and

43a
(C) a period of not more than five years has elapsed
since the date of conviction, or the release of the
person from imprisonment, for the offense described
in subparagraph (A), whichever is later.
(3) Subject to rebuttal by the person, it shall be
presumed that no condition or combination of
conditions will reasonably assure the appearance of
the person as required and the safety of the
community if the judicial officer finds that there is
probable cause to believe that the person committed—
(A) an offense for which a maximum term of
imprisonment of ten years or more is prescribed in the
Controlled Substances Act (21 U.S.C. 801 et seq.), the
Controlled Substances Import and Export Act (21
U.S.C. 951 et seq.), or chapter 705 of title 46 [46 USCS
§ 70501 et seq.];
(B) an offense under section 924(c), 956(a), or 2332b
of this title [18 USCS § 924(c), 956(a), or 2332b];
(C) an offense listed in section 2332b(g)(5)(B) of title
18, United States Code [18 USCS § 2332b(g)(5)(B)],
for which a maximum term of imprisonment of 10
years or more is prescribed;
(D) an offense under chapter 77 of this title [18 USCS
§§ 1581 et seq.] for which a maximum term of
imprisonment of 20 years or more is prescribed; or
(E) an offense involving a minor victim under section
1201, 1591, 2241, 2242, 2244(a)(1), 2245, 2251,
2251A, 2252(a)(1), 2252(a)(2), 2252(a)(3), 2252A(a)(1),
2252A(a)(2), 2252A(a)(3), 2252A(a)(4), 2260, 2421,
2422, 2423, or 2425 of this title [18 USCS §
1201, 1591, 2241, 2242, 2244, (a)(1), 2245, 2251,
2251A, 2252(a)(1), 2252(a)(2), 2252(a)(3), 2252A(a)(1),

44a
2252A(a)(2), 2252A(a)(3), 2252A(a)(4), 2260, 2421,
2422, 2423, or 2425].
(f) Detention hearing. The judicial officer shall hold
a hearing to determine whether any condition or
combination of conditions set forth in subsection (c) of
this section will reasonably assure the appearance of
the person as required and the safety of any other
person and the community—
(1) upon motion of the attorney for the Government,
in a case that involves—
(A) a crime of violence, a violation of section 1591 [18
USCS § 1591], or an offense listed in section
2332b(g)(5)(B) [18 USCS § 2332b(g)(5)(B)] for which a
maximum term of imprisonment of 10 years or more
is prescribed;
(B) an offense for which the maximum sentence is life
imprisonment or death;
(C) an offense for which a maximum term of
imprisonment of ten years or more is prescribed in the
Controlled Substances Act (21 U.S.C. 801 et seq.), the
Controlled Substances Import and Export Act (21
U.S.C. 951 et seq.), or chapter 705 of title 46 [46 USCS
§§ 70501 et seq.];
(D) any felony if the person has been convicted of two
or more offenses described in subparagraphs (A)
through (C) of this paragraph, or two or more State or
local offenses that would have been offenses described
in subparagraphs (A) through (C) of this paragraph if
a circumstance giving rise to Federal jurisdiction had
existed, or a combination of such offenses; or
(E) any felony that is not otherwise a crime of
violence that involves a minor victim or that involves

45a
the possession or use of a firearm or destructive device
(as those terms are defined in section 921 [18 USCS §
921]), or any other dangerous weapon, or involves a
failure to register under section 2250 of title 18,
United States Code [18 USCS § 2250]; or
(2) upon motion of the attorney for the Government
or upon the judicial officer’s own motion, in a case that
involves—
(A) a serious risk that such person will flee; or
(B) a serious risk that the person will obstruct or
attempt to obstruct justice, or threaten, injure, or
intimidate, or attempt to threaten, injure, or
intimidate, a prospective witness or juror.
The hearing shall be held immediately upon the
person’s first appearance before the judicial officer
unless that person, or the attorney for the
Government, seeks a continuance. Except for good
cause, a continuance on motion of the person may not
exceed five days (not including any intermediate
Saturday, Sunday, or legal holiday), and a
continuance on motion of the attorney for the
Government may not exceed three days (not including
any intermediate Saturday, Sunday, or legal holiday).
During a continuance, the person shall be detained,
and the judicial officer, on motion of the attorney for
the Government or sua sponte, may order that, while
in custody, a person who appears to be a narcotics
addict receive a medical examination to determine
whether such person is an addict. At the hearing, the
person has the right to be represented by counsel,
and, if financially unable to obtain adequate
representation, to have counsel appointed. The

46a
person shall be afforded an opportunity to testify, to
present witnesses, to cross-examine witnesses who
appear at the hearing, and to present information by
proffer or otherwise. The rules concerning
admissibility of evidence in criminal trials do not
apply to the presentation and consideration of
information at the hearing. The facts the judicial
officer uses to support a finding pursuant to
subsection (e) that no condition or combination of
conditions will reasonably assure the safety of any
other person and the community shall be supported
by clear and convincing evidence. The person may be
detained pending completion of the hearing. The
hearing may be reopened, before or after a
determination by the judicial officer, at any time
before trial if the judicial officer finds that
information exists that was not known to the movant
at the time of the hearing and that has a material
bearing on the issue whether there are conditions of
release that will reasonably assure the appearance of
the person as required and the safety of any other
person and the community.
(g) Factors to be considered. The judicial officer
shall, in determining whether there are conditions of
release that will reasonably assure the appearance of
the person as required and the safety of any other
person and the community, take into account the
available information concerning—
(1) the nature and circumstances of the offense
charged, including whether the offense is a crime of
violence, a violation of section 1591 [18 USCS § 1591],
a Federal crime of terrorism, or involves a minor

47a
victim or a controlled substance, firearm, explosive, or
destructive device;
(2) the weight of the evidence against the person;
(3) the history and characteristics of the person,
including—
(A) the person’s character, physical and mental
condition, family ties, employment, financial
resources, length of residence in the community,
community ties, past conduct, history relating to drug
or alcohol abuse, criminal history, and record
concerning appearance at court proceedings; and
(B) whether, at the time of the current offense or
arrest, the person was on probation, on parole, or on
other release pending trial, sentencing, appeal, or
completion of sentence for an offense under Federal,
State, or local law; and
(4) the nature and seriousness of the danger to any
person or the community that would be posed by the
person’s release. In considering the conditions of
release described in subsection (c)(1)(B)(xi) or
(c)(1)(B)(xii) of this section, the judicial officer may
upon his own motion, or shall upon the motion of the
Government, conduct an inquiry into the source of the
property to be designated for potential forfeiture or
offered as collateral to secure a bond, and shall decline
to accept the designation, or the use as collateral, of
property that, because of its source, will not
reasonably assure the appearance of the person as
required.
(h) Contents of release order. In a release order
issued under subsection (b) or (c) of this section, the
judicial officer shall—

48a
(1) include a written statement that sets forth all the
conditions to which the release is subject, in a manner
sufficiently clear and specific to serve as a guide for
the person’s conduct; and
(2) advise the person of—
(A) the penalties for violating a condition of release,
including the penalties for committing an offense
while on pretrial release;
(B) the consequences of violating a condition of
release, including the immediate issuance of a
warrant for the person’s arrest; and
(C) sections 1503 of this title [18 USCS § 1503]
(relating to intimidation of witnesses, jurors, and
officers of the court), 1510 [18 USCS § 1510] (relating
to obstruction of criminal investigations), 1512 [18
USCS § 1512] (tampering with a witness, victim, or
an informant), and 1513 [18 USCS § 1513]
(retaliating against a witness, victim, or an
informant).
(i) Contents of detention order. In a detention
order issued under subsection (e) of this section, the
judicial officer shall—
(1) include written findings of fact and a written
statement of the reasons for the detention;
(2) direct that the person be committed to the custody
of the Attorney General for confinement in a
corrections facility separate, to the extent practicable,
from persons awaiting or serving sentences or being
held in custody pending appeal;
(3) direct that the person be afforded reasonable
opportunity for private consultation with counsel; and

49a
(4) direct that, on order of a court of the United States
or on request of an attorney for the Government, the
person in charge of the corrections facility in which
the person is confined deliver the person to a United
States marshal for the purpose of an appearance in
connection with a court proceeding.
The judicial officer may, by subsequent order, permit
the temporary release of the person, in the custody of
a United States marshal or another appropriate
person, to the extent that the judicial officer
determines such release to be necessary for
preparation of the person’s defense or for another
compelling reason.
(j) Presumption of innocence. Nothing in this
section shall be construed as modifying or limiting the
presumption of innocence.
18 U.S.C. § 3142.

